                                                                             Report No. DODIG-2014-030




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              JA N UA RY 1 3 , 2 0 1 4




               Navy Needs to Improve Contract
               Oversight of Its Financial
               Improvement and Audit Readiness
               Program Contracts




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




For more information about whistleblower protection, please see the inside back cover.
                                        Results in Brief
                                        Navy Needs to Improve Contract Oversight of
                                        Its Financial Improvement and Audit Readiness
                                        Program Contracts


January 13, 2014

Objective                                               Recommendations
The objective of the audit was to determine             We recommend that the Site Director of NAVSUP FLC
whether the Navy is performing effective                Philadelphia:
oversight of the contracts for its Financial
Improvement and Audit Readiness Program.                   •	 Verify contracting officers prepare quality assurance
                                                              surveillance plans.

Findings                                                   •	 Establish procedures to validate that contracting officers’
                                                              representatives only accept deliverables that meet
The Navy Office of Financial Operations and
                                                              task-order requirements.
Naval Supply System Command, Fleet Logistics
Center Norfolk, Philadelphia Office (NAVSUP             We also recommend that the Deputy Assistant Secretary of the
FLC Philadelphia) did not perform adequate              Navy, Financial Operations, establish procedures requiring
contract oversight on all 13 nonstatistically           contracting officer representatives to communicate changes
selected sampled task orders related to the Navy’s      to the deliverables to the contracting officers.
Financial Improvement and Audit Readiness
efforts as of September 30, 2012.
                                                        Management Comments and
This occurred because the contracting officer
                                                        Our Response
believed the quality assurance surveillance plan
                                                        Management comments partially addressed the recommendations.
for the SeaPort-e contract or the performance
                                                        The Commander, Naval Supply Systems Command, agreed with
standards within each task order fulfilled the
                                                        all the recommendations and immediately began modifying
requirements; the Navy Office of Financial
                                                        existing orders and updating procedures.         However, we
Operations reprioritized its audit-readiness
                                                        request that management provide additional comments on
focus and believed part of the deliverable
                                                        recommendation 1.d by February 13, 2014. The Deputy, Financial
was not required; no mechanism was in place
                                                        Operations agreed with our recommendations and will increase
to track deliverable submission dates; and the
                                                        contract oversight staff and update technical assistant letters.
contracting officer and the Deputy Director,
                                                        According to the Deputy’s comments, the Navy has provided
Office of the Deputy Assistant Secretary
                                                        training to reiterate COR duties. We consider these comments
Financial    Operations,   did   not     process
                                                        responsive. Please see the Recommendations Table on the
appointment letters accurately. As a result,
                                                        next page.
NAVSUP FLC Philadelphia had limited
assurance on the quality of audit-readiness
services totaling $26.3 million in expended
funds as of September 30, 2012.



 Visit us on the web at www.dodig.mil


                                                                           DODIG-2014-030 (Project No. D2012-D000DE-0192.000) │ i
                  Recommendations Table
                                                              Recommendations         No Additional Comments
                                  Management                  Requiring Comment              Required
                    Deputy Assistant Secretary of the Navy,                       2.a and 2.b
                    Financial Operations
                    Commander, Naval Supply System                   1.d          1.a, 1.b, 1.c, and 1.e
                    Command

                  *Please provide comments by February 13, 2014.




ii │ DODIG-2014-030 (Project No. D2012-D000DE-0192.000)
                                INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                               4800 MARK CENTER DRIVE
                            ALEXANDRIA, VIRGINIA 22350-1500


                                                                            January 13, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
			             (COMPTROLLER)/CHIEF FINANCIAL OFFICER, DoD
		              NAVAL INSPECTOR GENERAL

SUBJECT: Navy Needs to Improve Contract Oversight of Its Financial Improvement and Audit 	
	        Readiness Program Contracts (Report No. DODIG-2014-030)

We are providing this final report for review and comment. The Navy did not perform
adequate contract oversight related to its Financial Improvement and Audit Readiness
efforts. The Navy had limited assurance that $26.3 million in expended funds as of
September 30, 2012, represented the actual quantity of audit readiness services performed
and that the services were of sufficient quality.

We considered management comments on a draft of this report when preparing the final
report. DoD Directive 7650.3 required that recommendations be resolved promptly.
Comments from the Commander, Naval Supply Systems Command were generally
responsive; however, comments on Recommendation 1.d were only partially responsive.
Therefore, we request additional comments on this recommendation by February 13, 2014.

Please send a Microsoft Word (.doc) file and portable document format (.pdf) file containing
your comments to audclev@dodig.mil. Copies of your comments must have the actual
signature of the authorizing official for your organization. We are unable to accept the
/Signed/ symbol in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router
Network (SIPRNET).

We appreciate the courtesies extended to the staff.      Please direct questions to me at
(703) 604-8905.



	                                           Amy J. Frontz
	                                           Principal Assistant Inspector General
	                                              for Auditing




                                                                                        DODIG-2014-030 │ iii
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Review of Internal Controls_____________________________________________________________________4

                  Finding. Inadequate Contract Oversight____________________________5
                  Quality Assurance Surveillance Plans Not Prepared __________________________________________6
                  Task Order Changes Not Documented and Incomplete
                  Deliverables Accepted___________________________________________________________________________7
                  Deliverable Submission Dates Should Be Documented_______________________________________9
                  Appointment Letters Must Be Accurate________________________________________________________9
                  Recommendations, Management Comments, and Our Response__________________________ 11

                  Appendixes
                  Appendix A. Scope and Methodology________________________________________________________ 15
                          Use of Computer-Processed Data ___________________________________________________ 15
                          Use of Technical Assistance__________________________________________________________ 16
                  Appendix B. Prior Coverage__________________________________________________________________ 17
                  Appendix C. Obligated and Expended Funds as of September 30, 2012__________________ 20

                  Management Comments_____________________________________________________ 22
                  Assistant Secretary of the Navy, Financial Operations _____________________________________ 22
                  Naval Supply System Command_ _____________________________________________________________ 25

                  Acronyms and Abbreviations______________________________________________ 32




iv │ DODIG-2014-030
                                                                                          Introduction




Introduction
Objective
The objective of the audit was to determine whether the Navy is performing
effective oversight of the contracts for its Financial Improvement and Audit Readiness
(FIAR) Program.


Background
The Office of Financial Operations (FMO), headquartered in Washington, D.C., is
responsible for the Department of the Navy’s (Navy) FIAR Program. FMO uses contractors
to perform financial tasks to achieve audit readiness for the Navy and maintain
financial-management improvement.


Project Management Office Task Order and Financial
Improvement and Audit Readiness Contracts
The Naval Supply System Command, Fleet Logistic Center Norfolk, Philadelphia Office
(NAVSUP FLC Philadelphia) awarded one program management office (PMO) task order
to Deloitte Consulting against a SeaPort-e contract on August 11, 2011. The SeaPort-e
contract is an umbrella service contract the Navy uses to obtain other support services. The
PMO task order is a cost-plus-fixed-fee, indefinite-delivery, indefinite-quantity task
order for the planning, execution, and oversight of the Navy FIAR Program as well as
specific supporting projects.      The Navy spent $5.8 million on this task order as of
September 30, 2012.

A cost-plus-fixed-fee contract is a cost-reimbursement contract.     The contract provides
reimbursement for allowable costs to the extent prescribed in the contract.            These
contracts establish an estimate of total cost for the purpose of obligating funds and
establishing a ceiling the contractor may not exceed (except at its own risk) without the
approval of the contracting officer. The fixed fee is a negotiated fee set at the inception
of the contract. This contract type permits contracting for efforts that might otherwise
present too great a risk to contractors, but it provides the contractor only a minimum
incentive to control costs. Indefinite-delivery, indefinite-quantity contracts provide for an
indefinite quantity of services for a fixed time.

In addition to the PMO task order, NAVSUP FLC Philadelphia awarded the three
cost-plus-fixed-fee, multiple-award, indefinite-delivery, indefinite-quantity FIAR contracts
to KPMG, Booz Allen Hamilton, and Accenture National Security Services on April 1, 2010.




                                                                                       DODIG-2014-030 │ 1
Introduction



                 These three contract awards are to implement FIAR tasks and actions at select Navy
                 commands and some Navy-level activities. Specifically, there was a universe of 35 task
                 orders as of September 30, 2012. Multiple-award contracting enables the Government
                 to procure services more quickly, using simplified acquisition procedures, while taking
                 advantage of competition to obtain lower prices.

                 Each contract has an identical performance work statement, and the Navy
                 offers task orders for bidding to all three contractors. Contractors do not have to
                 bid on every task order. No breakdown exists to note which contractor completes
                 which types of work. The total amount of the FIAR task orders was $44.9 million
                 in expended funds as of September 30, 2012. (See Appendix C for the universe of
                 obligated and expended amounts as of September 30, 2012 per contractor and
                 task order.)


                 Task Orders Selected for Review
                 Table 1 identifies the nonstatistical sample of 13 out of 36 task orders for review as of
                 September 30, 2012. (See Appendix A for more information on sample selection.)

                 Table 1. Sample of 13 Task Orders Selected for Review as of September 30, 2012.
                          Contractor       Task Order      Obligated Amount         Expended Amount
                     Deloitte                 EX02           $13,937,309                $5,819,356
                     Accenture                0002             5,963,954                 4,182,611
                                              0005             4,286,077                 3,161,204
                                              0007             1,372,157                   354,480
                                              0008             8,350,976                   178,735
                                              0011             2,109,298                           -
                                              0012              710,298                            -
                     Booz Allen Hamilton      1004            12,485,706                 6,752,988
                                              1010             1,195,727                   233,961
                                              1011             4,921,422                   583,923
                                              1013             6,983,806                           -
                     KPMG                     2005             3,139,374                 1,366,031
                                              2007             9,327,016                 3,696,895
                      Total                     13           $74,783,120               $26,330,184




2 │ DODIG-2014-030
                                                                                                   Introduction



Contracting Personnel
To perform contract oversight, the Navy assigned various personnel, including
contracting officers, contracting officers’ representatives (CORs), and technical assistants
(TAs). A contracting officer is a Government official authorized by a warrant to enter
into,   administer,   or   terminate   contracts    for   the   Government.     NAVSUP     FLC,
Philadelphia appointed five contracting officers to administer the 36 task orders
as of September 30, 2012.           A COR is a person authorized in writing by the
contracting officer to perform specific technical or administrative functions. The
NAVSUP FLC Philadelphia contracting office appointed 11 CORs to its 36 task orders
as of September 30, 2012. The TA is the requiring activity representative the Navy
may assign to provide technical or administrative assistance to the COR.               TAs may
be appointed to assist and support the COR but do not have the authority to
provide any technical direction or clarification directly to the contractor. The Deputy
Director, Office of the Deputy Assistant Secretary Financial Operations, appointed
19 TAs to 19 task orders as of September 30, 2012.


Contract Guidance
Federal Acquisition Regulation (FAR) Section 2.1 states that a contract is a mutually
binding legal relationship obligating the seller to furnish services and the buyer to
pay for them. It includes all types of commitments that obligate the Government to an
expenditure of appropriated funds and requires that, except as otherwise authorized,
these commitments be in writing. FAR Section 46.401 states that the quality assurance
surveillance plan (QASP) should be prepared in conjunction with the preparation
of the statement of work and should specify all work requiring surveillance and the
method of surveillance.

The Department of Defense COR Handbook, March 22, 2012, (COR Handbook),
states that a QASP is an important tool the COR can use as a guide for systematically
and effectively monitoring the quality of the services received, in compliance with
the terms of the contract.       The COR can also use the COR Handbook as a guide
for determining if the Government needs to intercede and perhaps terminate a
contract, as well as for determining when to exercise contract options.               The QASP
details how and when the Government will survey, observe, test, sample, evaluate, and
document contractor performance. The Government can adjust the QASP to address
contract risk not anticipated or risk that is no longer a risk to contract success.

Naval    Supply   Systems     Command       Instruction    4205.3D,    “Contracting    Officer’s
Representative,” May 5, 2011, (Navy instruction) states that a COR nomination letter




                                                                                             DODIG-2014-030 │ 3
Introduction



                 should be forwarded to the contracting officer before contract award. Furthermore, a
                 COR must be appointed in writing before the award of all contracts and orders and
                 may be personally liable for unauthorized acts. This Navy instruction also defines a
                 TA as the requiring activity’s representative, who may be assigned to provide technical
                 or administrative assistance to the COR.      A TA can review contract or task order
                 deliverables, recommend acceptance or rejection, and provide the COR with
                 documentation to support the recommendation.


                 Review of Internal Controls
                 DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
                 July 29, 2010, requires DoD organizations to implement a comprehensive system of
                 internal controls that provides reasonable assurance that programs are operating as
                 intended and to evaluate the effectiveness of the controls. We identified internal control
                 weaknesses in the Navy FMO oversight of its FIAR Program contracts. The Navy FMO
                 and NAVSUP FLC Philadelphia did not prepare QASPs for 13 task orders; verify that
                 CORs reviewed deliverables meeting the requirements for 2 task orders; record
                 when deliverables were submitted for 7 task orders; properly appoint CORs for
                 7 task orders; or properly appoint TAs for 4 task orders.        This occurred because
                 the contracting officer believed the QASP for the SeaPort-e contract or the performance
                 standards within each task order fulfilled the requirements; Navy FMO reprioritized
                 its audit-readiness focus or believed part of the deliverable was not required;
                 no mechanism was in place to track deliverable submission dates; and the
                 contracting officer and the Deputy Director, Office of the Deputy Assistant
                 Secretary Financial Operations, did not process appointment letters accurately.
                 We will provide a copy of the report to the senior official responsible for internal
                 controls in the Navy.




4 │ DODIG-2014-030
                                                                                            Finding




Finding
Inadequate Contract Oversight
The Navy FMO and NAVSUP FLC Philadelphia did not perform adequate contract
oversight on all 13 nonstatistically selected task orders related to the Navy’s FIAR
efforts as of September 30, 2012. Specifically, the two organizations did not:

         •	 prepare QASPs for 13 task orders;

         •	 verify that the CORs accepted deliverables meeting the requirements for
           2 task orders;

         •	 record when deliverables were submitted for 7 task orders;

         •	 properly appoint CORs for 7 task orders; or

         •	 properly assign TAs for 4 task orders.

This occurred because:

         •	 the contracting officer believed the SeaPort-e contract QASP for the
           PMO task order or the FIAR task order performance standards listed
           within the performance work statement fulfilled QASP requirements;

         •	 Navy FMO reprioritized its audit-readiness focus and stated part of the
           deliverable was not required;

         •	 the CORs did not have a mechanism to track when deliverables were
           submitted; and

         •	 the contracting officer and the Deputy Director, Office of the Deputy
           Assistant Secretary Financial Operations, did not process appointment
           letters accurately.

As a result, the Navy FMO and NAVSUP FLC Philadelphia had limited assurance
on the quality of audit-readiness services totaling $26.3 million in expended funds
as of September 30, 2012. In addition, without appropriate contract surveillance,
the Navy might not meet its FIAR goals.




                                                                                   DODIG-2014-030 │ 5
Finding



                 Oversight Problems Identified by Task Order
                 Table 2 details the five oversight problem areas identified during the review of
                 13 task orders: QASP not prepared, deliverables not supported, deliverables
                 submission dates not documented, and CORs and TAs not properly appointed.

                 Table 2. Results by Task Order of Inadequate Oversight
                                                                             Deliverables
                                                   QASP Not   Deliverables                  CORs Not     TAs Not
                                        Task                                 Submission
                       Contractor                  Prepared       Not                        Properly    Properly
                                        Order                                 Dates Not
                                                              Supported                     Appointed   Appointed
                                                                             Documented
                      Deloitte          EX02           X           X              X                        *
                      Accenture         0002           X                          X                        X
                                        0005           X                          X                        *
                                        0007           X                                                   X
                                        0008           X                                       X
                                        0011           X                                       X           *
                                        0012           X                                       X           *
                      Booz Allen        1004           X           X              X
                      Hamilton
                                        1010           X                          X            X           *
                                        1011           X                                       X           X
                                        1013           X                                       X           *
                      KPMG              2005           X                          X            X           *
                                        2007           X                          X                        X
                       Total              13          13           2              7            7           4
                     * = No TA assigned to the task order.
                     X = Problem identified.


                 Quality Assurance Surveillance Plans Not Prepared
                 The Government performs quality assurance to determine whether a contractor met the
                 contract performance standards. The QASP is the Government’s surveillance document
                 used to verify that the contractor met the standards for each performance task. The QASP
                 prepared in conjunction with the statement of work outlines the functions, including
                 acceptance of deliverables and inspections, that a COR should perform to determine
                 whether a contractor fulfilled the contract obligations pertaining to quality and quantity.
                 It should be prepared in conjunction with the statement of work to specify all work requiring
                 surveillance and the method of surveillance. The QASP should also specify how the
                 COR inspects and accepts deliverables to meet the task order performance work standards.



6 │ DODIG-2014-030
                                                                                                  Finding



                       The contracting officers did not prepare QASPs for the 13 task
        The              orders reviewed. NAVSUP FLC Philadelphia personnel stated
    contracting           the SeaPort-e contract QASP applied to the PMO task order,
  officers did not
                          while performance standards listed within the performance
 prepare QASPs for
   13 task orders         work statement fulfilled the QASP requirements for the 12
     reviewed.            FIAR task orders. The three contracting officers responsible
                        for   the     13     task   orders     misunderstood   the   QASP
                     requirements.         Each individual task order should have a
QASP; however, NAVSUP FLC Philadelphia personnel did not provide a QASP
for the 13 task orders reviewed.           Additionally, performance standards included
in the performance work statements for the 12 FIAR task orders neither
fulfill nor replace the requirements for a Government-prepared QASP. Performance
standards within each task order establish the Government’s performance-level
requirements for contractors.       These standards are measurable and structured to
permit an assessment of the contractor’s performance. The contracting officers were
not systematically and effectively monitoring the quality of the $26.3 million in services
received in accordance with FAR Section 46.401 as of September 30, 2012.

The CORs did not have a plan when inspecting the deliverables for quality because
the contracting officer did not prepare a QASP for the CORs to use. The Office of the
Under Secretary of Defense (Acquisition, Technology, and Logistics) published a
COR Handbook listing best practices to include in a QASP. NAVSUP FLC Philadelphia
should establish procedures to verify that contracting officers develop QASPs for
existing and future task orders, in accordance with FAR Section 46.401. Additionally,
contracting officers should refer to the COR Handbook for suggested best practices
when developing QASPs.


Task Order Changes Not Documented and Incomplete
Deliverables Accepted
The CORs accepted nine deliverables that did not meet
requirements for two task orders. Specifically, they accepted
six incomplete deliverables and changed requirements                     The CORs
for three deliverables without documenting the changes.                accepted nine
For example, PMO task order, deliverable 4.1.3 required                 deliverables
                                                                     that did not meet
monthly Audit Readiness Plan documents.             However,         requirements for
the contractor only provided one document over a                      two task orders.
12-month period.     In another example, FIAR task order
1004, deliverable 4i required a gap analysis identifying



                                                                                         DODIG-2014-030 │ 7
Finding



                 internal-control weaknesses and determining the process improvements necessary
                 for the FY 2012 military pay assertion, but the contractor did not provide this. The
                 contractor instead provided background on what makes up military pay and the
                 military pay budgeting and execution process. The gap analysis deliverable should
                 provide an evaluation of internal controls for the military pay assertion, but it
                 did not.    Internal controls are one of the primary areas auditors focus on when
                 collecting evidence to support the fair presentation of financial statement amounts.
                 Internal controls are important for audit readiness because reporting entities
                 must identify and evaluate the risk of material misstatement and then design and
                 implement internal control activities to meet key control objectives that limit risk.

                 The CORs accepted deliverables that did not meet requirements because Navy FMO
                 reprioritized its audit-readiness focus in accordance with the Navy’s FIAR plan
                 and stated part of the requirements for two of the nine deliverables were no longer
                 required. The FIAR Plan defines the Navy’s strategy and methodology for
                 improving financial management, prioritizing improvement activity, strengthening
                 internal controls, and achieving auditability. The Navy’s FIAR plan summarizes
                 the actions and plans of the Components for achieving auditability, and updates the
                 Navy’s progress toward achieving audit readiness, improving financial management,
                 and increasing efficiency in financial operations. Additionally, Navy FMO personnel
                 stated that requirements for part of another deliverable were not required and could
                 not provide a reason why the contractor did not provide the remaining six deliverables.

                 As a result, NAVSUP FLC Philadelphia spent $12.6 million for contactor work on
                 two task orders but did not adequately track whether the contractor met the
                 requirements.     The Navy is at increased risk for expending obligations for
                 incomplete or inadequate contractor work. Additionally, requirements for the task
                 orders changed without contract modifications or documentation supporting
                 the changes.     NAVSUP FLC Philadelphia should establish procedures to validate
                 that CORs only accept deliverables that meet task-order requirements and establish
                 procedures to validate that contracting officers execute modifications or document
                 all changes to the deliverables in their contract files. Additionally, the Deputy
                 Assistant    Secretary   of   the   Navy,    Financial   Operations,    should    establish
                 procedures requiring CORs to communicate changes to the deliverables to the
                 contracting officers.




8 │ DODIG-2014-030
                                                                                                 Finding



Deliverable Submission Dates Should Be Documented
The CORs did not document the submission dates for deliverables associated with
7 of the 13 task orders. For the remaining six task orders, a COR developed his
own tracking method to document the deliverable submission date for one task
order; two task orders did not specify deliverable submission dates; and three task
orders had submission dates beyond the audit review cutoff date of September 30, 2012.

                       Typically, the contractor submits deliverables to the Navy
         CORs             through the Financial Improvement Program tool, which does
     did not have
    a mechanism            not maintain a log or history of deliverable submissions.
    to track when          Only one COR adequately developed a method to track
  deliverables were        submission dates, by logging deliverable due dates into
      submitted.
                          a Word document and keeping the contractor’s submission
                        e-mail in his contract file.    The remaining CORs did not
                      track deliverable submission dates. On FIAR task order 0002,
there were 15 deliverables whose submission dates were not tracked.                  For
example, deliverable 4d. required substantive testing of the statement of
budgetary resources, which was not tracked; therefore, the milestone may have been
missed. This occurred because these CORs did not have a mechanism, as required
by the Navy instruction, to track when contractors submitted deliverables.           The
Navy instruction states the COR should keep a copy of all submission documents and
develop a system showing all due dates.        As a result, there is no assurance that
contractors submitted deliverables on time for seven of the task orders.            Late
submission of deliverables could affect the timelines for Navy audit readiness.
NAVSUP FLC Philadelphia should establish a mechanism for CORs to track the
date contractors submit deliverables.


Appointment Letters Must Be Accurate
The contracting officers did not properly appoint CORs for 7 of 13 task orders. COR
appointment letters did not exist for one of seven task orders, and the signatures on the
remaining six appointment letters occurred after task-order award. For example, one
COR performed COR duties over 6 months without an appointment letter. In another
example, a COR was listed in a task order on May 7, 2012, but the appointment letter
was not signed until January 25, 2013. The COR was performing COR duties for over
8 months without being appointed in writing.

NAVSUP FLC Philadelphia and Navy FMO personnel cited several reasons for the
discrepancies, including administrative oversight and extenuating circumstances.




                                                                                        DODIG-2014-030 │ 9
Finding



                 Specifically, some discrepancies occurred because three contracting officers did
                 not follow the Navy instruction. The Navy instruction states that the contracting officer
                 should appoint the COR in writing before awarding the contract and should identify
                 the COR in the contract. Additionally, the contracting officer must modify the contract
                 when the appointment is terminated.          A signed appointment letter holds the
                 COR personally liable for unauthorized acts and certifies the information to the best
                 of his or her knowledge.

                 Moreover, the Deputy Director, Office of the Deputy Assistant Secretary Financial
                 Operations, did not properly appoint some TAs.           For 10 TAs he assigned to
                 6 of 13 task orders, 7 TAs were not properly appointed, affecting 4 task orders. TA
                 appointment letters contained discrepancies; for example, some were not signed
                 and/or dated or were signed late.        One TA signed and dated her appointment
                 letter on August 7, 2012, but in an interview stated she became the TA in
                 September 2011. Therefore, she performed TA duties for about a 1 year without
                 a proper appointment. Navy FMO provided several reasons for the discrepancies,
                 including a lack of administrative oversight and administrative delay.            These
                 discrepancies occurred because the Deputy Director, Office of the Deputy
                 Assistant Secretary Financial Operations, did not follow the Navy instruction. It states
                 that the commanding officer or a designee may appoint a TA to assist the COR in
                 executing routine administration and monitoring duties.           Furthermore, the TA
                 appointment must be in writing.

                 As a result, it will be difficult for the contracting officers and the Deputy Director,
                 Office of the Deputy Assistant Secretary Financial Operations, to identify which
                 COR is accountable during a specific period, or which TA should be fulfilling all duties,
                 if needed.   NAVSUP FLC Philadelphia should work with the contracting officers
                 and Deputy Assistant Secretary of the Navy, Financial Operations, to establish a
                 control procedure to verify that COR and TA appointment letters are properly
                 appointed in accordance with the Navy instruction.




10 │ DODIG-2014-030
                                                                                                    Finding



Recommendations, Management Comments, and Our
Response
      1.	    We recommend that the Site Director of the Naval Supply System Command,
             Fleet Logistics Center Norfolk, Philadelphia Office:

             a.	 establish procedures to verify that contracting officers develop a
                 quality assurance surveillance plan for existing and future task orders,
                 in accordance with the Federal Acquisition Regulation Section 46.401.
                 Additionally, contracting officers should refer to the Department of
                 Defense COR Handbook, March 22, 2012, for suggested best practices
                 when developing a quality assurance surveillance plan.

Commander, Naval Supply Systems Command Comments
The Commander, Naval Supply Systems Command, agreed with our recommendation
and plans to establish a pre-solicitation procedure by March 1, 2014. This will include a
determination of whether a quality assurance surveillance plan should be required with
each delivery order under either a multiple-award or single-award task-order contract.


Our Response
The Commander’s response addressed all the specifics of the recommendation, and no
additional comments are required.

             b.	 establish procedures to validate that contracting officers’ representatives
                 only accept deliverables that meet task-order requirements;

Commander, Naval Supply Systems Command Comments
The Commander, Naval Supply Systems Command, agreed with our recommendation
and stated a process already exists to validate that contracting officers’ representatives
accept only deliverables that meet task-order requirements.           The current version
of   the    Naval   Supply   Systems   Command     contracting   officers’   representative’s
appointment letter requires the contracting officers’ representatives to maintain
a contract file for each contract/task order, and this letter lists all the documents
that must be maintained as part of the contracting officers’ representative’s
contract file.       Additionally, per the latest contracting officer’s representative
instruction, contracting officers are required to meet annually with the contracting
officers’ representatives and review the contracting officers’ representatives’ files.
These meetings provide contracting officers the ability to determine if contracting
officers’ representatives are properly reviewing deliverables.



                                                                                          DODIG-2014-030 │ 11
Finding



                 Our Response
                 The Commander’s response addressed all the specifics of the recommendation, and no
                 additional comments are required.

                             c.	 establish procedures to validate that contracting officers execute
                                modifications or document all changes to the deliverables in their
                                contract files;

                 Commander, Naval Supply Systems Command Comments
                 The Commander, Naval Supply Systems Command, agreed. The Commander stated
                 that a procedure already exists to document changes to deliverables in the contract
                 file. The current Naval Supply Systems Command contracting officer representative’s
                 instruction, Naval Supply Systems Command Instruction 4205.3E, “Contracting Officer’s
                 Representative,” May 28, 2013, requires the contracting officer representative to identify
                 new contract requirements and changes as they occur. Additionally, a contracting officer
                 representative should not make any commitments or changes that will affect price, quality,
                 quantity, delivery, or any other term or condition of the contract.


                 Our Response
                 The Commander’s response addressed all the specifics of the recommendation, and no
                 additional comments are required.

                             d.	 establish a mechanism for contracting officers’ representatives to
                                track the dates deliverables are submitted;

                 Commander, Naval Supply Systems Command Comments
                 The Commander, Naval Supply Systems Command, agreed. The Commander stated
                 a mechanism already exists where contracting officers’ representatives track
                 submission of deliverables.       As discussed above, the current version of the
                 Naval Supply Systems Command contracting officer’s representative’s appointment
                 letter requires each contracting officer’s representative to maintain a contract
                 file for each contract/task order. This letter lists all the documents that must be
                 maintained as part of the contracting officer’s representative’s contract file. These
                 required documents include a copy of all contractor data and Contract Data
                 Requirements List submissions, which enable the contracting officer’s’ representative
                 to track the dates Contract Data Requirements Lists are submitted.




12 │ DODIG-2014-030
                                                                                                     Finding



Our Response
The Commander’s response partially addressed the recommendation. Using the
Contract Data Requirements List will not provide documentation for the actual
dates deliverables are submitted. The Contract Data Requirements List only shows
the dates the deliverables are due. Therefore, the Commander needs to establish a
procedure or specific instruction to document the date the deliverable is submitted,
to ensure auditability.     We request that the Commander, Naval Supply Systems
Command provide additional comments to the recommendation by February 13, 2014.

            e.	 establish a control procedure to verify that contracting officers’
              representatives’ appointment letters are properly prepared and
              issued in accordance with the Naval Supply Systems Command
              Instruction     4205.3D,     “Contracting     Officer’s   Representative,”
              May 5, 2011.

Commander, Naval Supply Systems Command Comments
The Commander, Naval Supply Systems Command, agreed with our recommendation
and stated that a process already exists to review all contracting officers’
representatives’ appointment letters in accordance with its revised Naval Supply
Systems Command Self-Assessment Plan Guidebook.


Our Response
The Commander’s response addressed all the specifics of the recommendation, and no
additional comments are required.

      2.	   We recommend the Deputy Assistant Secretary of the Navy,
            Financial Operations:

            a.	 establish     procedures        requiring      contracting       officers’
              representatives to communicate changes to the deliverables to the
              contracting officers.

Deputy Assistant Secretary of the Navy, Financial
Operations Comments
The Deputy Assistant Secretary of the Navy, Financial Operations, agreed with
our recommendation and held refresher training to reiterate contracting officers’
representatives’ appointment responsibilities. Moreover, the addition of staff by
May 31, 2014, will strengthen the Navy’s ability to centrally track deliverable changes.




                                                                                           DODIG-2014-030 │ 13
Finding



                 Our Response
                 The Deputy Assistant Secretary’s response addressed all the specifics of the
                 recommendation, and no additional comments are required.

                               b.	 establish a control procedure to verify that technical assistant
                                 appointment letters are properly prepared and issued in accordance
                                 with the Naval Supply Systems Command Instruction 4205.3D,
                                 “Contracting Officer’s Representative,” May 5, 2011.

                 Deputy Assistant Secretary of the Navy, Financial
                 Operations Comments
                 The Deputy Assistant Secretary of the Navy, Financial Operations, agreed with our
                 recommendation and stated that his organization implemented an internal control
                 procedure to verify technical assistant letters are prepared in accordance with the
                 Naval    Supply    Systems    Command       Instruction     4205.3D,    “Contracting    Officer’s
                 Representative,”     May     5,   2011.    This      new    procedure      requires    Financial
                 Operations procurement staff to identify a requirement for technical assistants
                 and tailor specific technical assistant responsibilities required by the Contract
                 and     the    contracting   officers’    representative.    Additionally,      the   designated
                 Financial Operations representative and Division Director will sign the technical
                 assistant     appointment    letters,    and   the    technical     assistant   appointee   will
                 acknowledge the letters. Furthermore, it will be the responsibility of the contracting
                 officer’s representative to notify Financial Operations procurement staff of the
                 need to terminate technical assistant appointments.               Finally, Financial Operations
                 procurement staff should brief the status of Financial Operations contracting
                 officers’ representative and technical assistant (active, pending, and terminated
                 appointments) at Quarterly Program Reviews.


                 Our Response
                 The Deputy Assistant Secretary’s response addressed all the specifics of the
                 recommendation, and no additional comments are required.




14 │ DODIG-2014-030
                                                                                             Appendixes



Appendix A
Scope and Methodology
We conducted this performance audit from August 2012 through October 2013 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our finding and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our finding and
conclusions based on our audit objective.

Our review focused on the Navy’s oversight of its FIAR Program audit readiness
contracts. The universe consisted of one PMO task order to Deloitte Consulting against
a SeaPort-e contract and three FIAR contracts to KPMG, Booz Allen Hamilton, and
Accenture National Security Services, for a total of 36 task orders and $123.3 million
in obligations as of September 30, 2012.        See Appendix C for the obligated and
expended amounts as of September 30, 2012, per contractor and task order. A total of
11 CORs were assigned to one or more of the 36 task orders. The audit team used the
DoD OIG Quantitative Methods Division to determine the best sampling methodology.
We selected a nonstatistical sample of 10 CORs and reviewed 13 of their task orders.
A total of 3 contracting officers were assigned to the 13 task orders sampled.

We requested the QASP for each of the 13 task orders, to compare them with
FAR Section 46.401.     The CORs identified the deliverables for the 13 task orders,
and we requested the supporting documentation. We reviewed the support for the
13   task   orders,   analyzing   whether    each   fulfilled   the    performance   work
statement requirements. We determined if the deliverable was submitted on time
and verified whether CORs and TAs were appointed properly for work performed
within the cutoff date of September 30, 2012.         We performed site visits at the
Washington, D.C., Navy Yard.      We interviewed 2 contracting officers, 9 CORs, and
10 TAs from our sample, to understand how they perform contractor oversight.


Use of Computer-Processed Data
We obtained data from the Standard Accounting and Reporting System. The data
we used did not directly affect the outcome of the finding. We used the data to identify
the dollar amounts expended as of September 30, 2012.                 In addition, because
the fundamental business processes related to the audit objective did not rely on
information systems, we determined we did not have to assess system and general
controls over the Standard Accounting and Reporting System.



                                                                                        DODIG-2014-030 │ 15
Appendixes




                 Use of Technical Assistance
                 We    held   discussions   with   personnel   from   the   DoD   OIG   Quantitative
                 Methods Division.     We selected a nonstatistical sample of 13 out of 36 task
                 orders as of September 30, 2012.     We reviewed the 13 task orders for adequate
                 contract oversight.




16 │ DODIG-2014-030
                                                                                     Appendixes




Appendix B
Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the DoD IG
issued 30 reports discussing financial improvement and audit readiness or
contract oversight.    Unrestricted GAO reports can be accessed over the Internet
at http://www.gao.gov.      UUnrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports.


GAO
Report No. GAO-12-444T, “The Federal Government Faces Continuing Financial
Management and Long-Term Fiscal Challenges,” March 2012

Report No. GAO-12-132, “Ongoing Challenges with Reconciling Navy and Marine
Corps Fund Balance with Treasury,” December 2011

Report No. GAO-12-177T, “Challenges in the Implementation of Business Systems
Could Impact Audit Readiness Efforts,” October 2011

Report No. GAO-11-851, “Improvement Needed in DoD Components’ Implementation
of Audit Readiness Effort,” September 2011

Report No. GAO-11-830, “Marine Corps Statement of Budgetary Resources Audit
Results and Lessons Learned,” September 2011

Report No. GAO-11-864T, “Numerous Challenges Must Be Addressed to Achieve
Auditability,” July 2011

Report No. GAO-11-331T, “Role in Helping Ensure Effective Oversight and Reducing
Improper Payments,” February 2011

Report No. GAO-11-53, “Improved Management Oversight of Business System
Modernization Efforts Needed,” October 2010


DoD IG	
Report No. DoDIG-2013-037, “Quality Controls for the Rotary Wing Transport
Contracts Performed in Afghanistan Need Improvement,” January 2013




                                                                                DODIG-2014-030 │ 17
Appendixes



                 Report No. DoDIG-2013-007, “Award and Administration of Multiple Award Contracts
                 at Naval Facilities Engineering Command Specialty Centers Need Improvement,”
                 October 2012

                 Report No. DoDIG-2012-134, “Contingency Contracting: A Framework for Reform-2012
                 Update,” September 2012

                 Report No. DoDIG-2012-115, “Improved Oversight, but No Invoice Reviews and
                 Potential Antideficiency Act Violation May Have Occurred on the Kuwait Observer
                 Controller Team Task Orders,” August 2012

                 Report No. DoDIG-2012-108, “Questionable Data Cast Doubt on the Need for Continuing
                 the Defense Transportation Coordination Initiative,” August 2012

                 Report No. DoDIG-2012-111, “Enterprise Resource Planning Systems Schedule Delays
                 and Reengineering Weaknesses Increase Risks to DoD’s Auditability Goals,” July 2012

                 Report No. DoDIG-2012-104, “DoD Needs to Improve Vocational Training Efforts to
                 Develop the Afghan National Security Forces Infrastructure Maintenance Capabilities,”
                 June 2012

                 Report No. DoDIG-2012-087, “Logistics Modernization Program System Procure-to-Pay
                 Process Did Not Correct Material Weaknesses,” May 2012

                 Report No.     DoDIG-2012-066, “General Fund Enterprise Business System Did Not
                 Provide Required Financial Information,” March 2012

                 Report No. DoDIG-2012-033, “Award and Administration of Multiple Award Contracts
                 for Services at U.S. Army Medical Research Acquisition Activity Need Improvement,”
                 December 2011

                 Report No. D-2011-108, “Geothermal Energy Development Project at Naval Air Station
                 Fallon, Nevada, Did Not Meet Recovery Act Requirements,” September 2011

                 Report No. D-2011-072, “Previously Identified Deficiencies Not Corrected in the General
                 Fund Enterprise Business System Program,” June 2011

                 Report No. D-2011-047, “Improvements Needed in Contract Administration of the
                 Subsistence Prime Vendor Contract for Afghanistan, March 2011




18 │ DODIG-2014-030
                                                                                          Appendixes



Report No. D-2011-032, “Logistics Civil Augmentation Program Support Contract Needs
to Comply With Acquisition Rules,” January 2011

Report No. D-2010-068, “Government Oversight of Field Service Representative and
Instructor Services in Support of the Mine Resistant Ambush Protected Vehicle Program,”
June 2010

Report No. D-2010-059, “Contingency Contracting: A Framework for Reform,” May 2010

Report No. D-2010-047, “Repair and Maintenance Contracts for Aircraft Supporting
Coalition Forces in Afghanistan, Iraq, and Kuwait,” March 2010

Report No. D-2010-002, “Summary of DoD Office of the Inspector General Audits of
Financial Management,” October 2009

Report No. D-2009-109, “Contracts Supporting the DoD Counter Narcoterrorism
Technology Program Office,” September 2009

Report No. D-2009-096, “Contracts for the U.S. Army’s Heavy-Lift VI Program in Kuwait,”
July 2009

Report No. D-2009-095, “Contracting for Transportation Services for U.S. Army Corps
of Engineers, Gulf Region Division,” July 2009

Report No. D-2009-082, “SeaPort Enhanced Program,” May 2009




                                                                                     DODIG-2014-030 │ 19
Appendixes




                 Appendix C
                 Obligated and Expended Funds as of
                 September 30, 2012
                           Contractor       Task Order   Obligated Funds   Expended Funds
                      Deloitte                EX02*      $ 13,937,309       $ 5,819,356
                       Total                       1     $ 13,937,309       $ 5,819,356
                      Accenture                0001           $32,326          $15,235
                                               0002*        5,963,954         4,182,611

                                               0003         3,200,513         2,701,322
                                               0004         1,928,274         1,858,407
                                               0005*        4,286,077         3,161,204
                                               0006         2,603,588         1,149,118
                                               0007*        1,372,157          354,480
                                               0008*        8,350,976          178,735
                                               0009           256,686                 -
                                               0010         1,817,451                 -
                                               0011*        2,109,298                 -
                                               0012*          710,298                 -
                       Total                      12      $32,631,598      $13,601,111
                      Booz Allen Hamilton      1001           $28,447          $22,493
                                               1002           858,933          830,515
                                               1003         2,997,444         3,423,940
                                               1004*       12,485,706         6,752,988
                                               1005           277,658          321,886
                                               1006         3,338,382         1,101,492
                                               1007         1,887,746         1,020,417
                                               1008         2,886,498         1,220,770
                                               1009         3,186,381         1,385,185
                                               1010*        1,195,727          233,961
                                               1011*        4,921,422          583,923
                                               1012         1,860,976                 -
                                               1013*        6,983,806                 -
                       Total                      13      $42,909,126        $16,897,569




20 │ DODIG-2014-030
                                                                                Appendixes



       Contractor          Task Order   Obligated Funds   Expended Funds
 KPMG                          2001          $32,548            $24,080
                               2002        1,373,948          1,300,595
                               2003        3,535,655          3,256,326
                               2004          358,679            355,637

                               2005*       3,139,374          1,366,031

                               2006        2,359,973          1,042,928
                               2007*       9,327,016          3,696,895
                               2008       10,032,641          3,313,432
                               2009        2,108,299                  -
                               2010        1,534,072                  -
   Total                          10     $33,802,205         $14,355,923
   Grand Total                    36    $123,280,238         $50,673,959

*13 sample items selected for review.




                                                                           DODIG-2014-030 │ 21
Management Comments




                 Management Comments
                 Assistant Secretary of the Navy, Financial Operations




22 │ DODIG-2014-030
                                                     Management Comments



Assistant Secretary of the Navy, Financial Operations (cont’d)




                                                          DODIG-2014-030 │ 23
Management Comments



            Assistant Secretary of the Navy, Financial Operations (cont’d.)




24 │ DODIG-2014-030
                              Management Comments



Naval Supply System Command




                                   DODIG-2014-030 │ 25
Management Comments



                 Naval Supply System Command (cont’d)




26 │ DODIG-2014-030
                                       Management Comments



Naval Supply System Command (cont’d)




                                            DODIG-2014-030 │ 27
Management Comments



                 Naval Supply System Command (cont’d)




28 │ DODIG-2014-030
                                       Management Comments



Naval Supply System Command (cont’d)




                                            DODIG-2014-030 │ 29
Management Comments



                 Naval Supply System Command (cont’d)




30 │ DODIG-2014-030
                                       Management Comments



Naval Supply System Command (cont’d)




                                            DODIG-2014-030 │ 31
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                             COR Contracting Officer’s Representative
                             FAR Federal Acquisition Regulation
                             FIAR Financial Improvement and Audit Readiness
                            FMO Office of Financial Operations
                      NAVSUP FLC Naval Supply Systems Command Fleet Logistic Center
                            PMO Program Management Office
                            QASP Quality Assurance Surveillance Plan
                              TA Technical Assistant




32 │ DODIG-2014-030
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
